Record Press Jnc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YO~K.

)

COUNTY OF NEW YORK

)

SS:

79810

AFFIDAVIT OF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 12th day of December 2018 deponent served 3 copies of the within

BRIEF OF GRAB THEM BY THE BALLOT, INC.. SPENCER TUNICK, AND CHRISTINE HALLQUIST
AS AMICI CUR/AESUPPORTING PETITIONERS
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERYAND ELECTRONIC MAIL
Eric Alan Isaacson
Counsel of Record
Law Office of Eric Alan Isaacson
6580 Avenida Mirola
La Jolla, CA 92037
(858) 263-9581
ericalanisaacson@icloud.com

Attorneys for Petitioners

Gordon J. Macdonald, Attorney General
Susan P. McGinnis, Senior Assistant Attorney General
Criminal Justice Bureau
Daniel E. Will, Solicitor General
NEW HAMPSHIRE DEPARTMENT OF JUSTICE
Office of the Attorney General
33 Capitol Street
Concord, NH 03301
[603} 271-3671
attorneygeneral@doj.nh.gov
susan.mcginnis@doj.nh.gov
Daniel.Will@doj.nh.gov

Attorneys for Respondent

I. Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on August 12, 2019, pursuant to Supreme
Court Rule 29.5(c). All parties required to be served, have been served.

,dkJGicti (J ~ .
Howard Daniels

Sworn to me this

August 12, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Comm ission Expires November 10, 2019

~~
Notary Public

Case Name: Lilley v. The State of New
Hampshire
Docket No. 19-64

